<html>
<title> - NOMINATIONS OF GEORGE W. FORESMAN AND TRACY A. HENKE</title>
<body><pre>[Senate Hearing 109-513]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-513
 
          NOMINATIONS OF GEORGE W. FORESMAN AND TRACY A. HENKE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                 ON THE

      NOMINATIONS OF GEORGE W. FORESMAN TO BE UNDER SECRETARY FOR 
PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY, AND TRACY A. HENKE 
    TO BE EXECUTIVE DIRECTOR, OFFICE OF STATE AND LOCAL GOVERNMENT 
  COORDINATION AND PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY


                               __________

                            DECEMBER 8, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
26-745                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
            Jennifer A. Hemingway, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
         Adam R. Sedgewick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Carper...............................................     5

                               WITNESSES
                       Thursday, December 8, 2005

Hon. Jo Ann Emerson, a Representative in Congress from the State 
  of Missouri....................................................     5
George W. Foresman to be Under Secretary for Preparedness, U.S. 
  Department of Homeland Security................................     7
Tracy A. Henke to be Executive Director, Office of State and 
  Local Government Coordination and Preparedness, U.S. Department 
  of Homeland Security...........................................     9

                     Alphabetical List of Witnesses

Emerson, Hon. Jo Ann:
    Testimony....................................................     5
Foresman, George W.:
    Testimony....................................................     7
    Prepared statement...........................................    35
    Biographical and professional information....................    37
    Letter from U.S. Office of Government Ethics.................    43
    Responses to pre-hearing questions...........................    44
    Responses to post-hearing questions..........................   114
Henke, Tracy A.:
    Testimony....................................................     9
    Prepared statement...........................................   127
    Biographical and professional information....................   129
    Letter from U.S. Office of Government Ethics.................   135
    Responses to pre-hearing questions...........................   136
    Responses to post-hearing questions..........................   172

                                APPENDIX

Prepared statements submitted for the Record from:
    Senator Warner for Mr. Foresman..............................    23
    Senator Warner for Ms. Henke.................................    24
    Senator Bond for Ms. Henke...................................    25
    Senator Talent for Ms. Henke.................................    27
    Senator Allen for Mr. Foresman...............................    28
    Hon. Emanuel Cleaver, II, Member of Congress from the State 
      of Missouri, House of Representations for Ms. Henke........    31
E-mail from Tracy Henke..........................................   195
Memorandum from Deborah J. Daniels, Assistant Attorney General, 
  Subject: Publication Clearance Process.........................   197
Press release from the Department of Justice submitted by Ms. 
  Henke..........................................................   198
Letters of support for Mr. Foresman from:
    Chief William D. Killen, President, International Association 
      of Fire Chiefs.............................................   200
    Robert L. Ehrlich, Jr., Governor, State of Maryland..........   201
    Jerry Johnston, NAEMT President-Elect, National Association 
      of Emergency Medical Technicians (NAEMT)...................   202
    Assemblyman Lynn Hettrick, Nevada, CSG Chair, and Governor 
      Ruth Ann Minner, Delaware, CSG President, The Council of 
      State Governments..........................................   203
    Bruce Baughman, NEMA President, National Emergency Management 
      Association (NEMA).........................................   204
Letters of support for Ms. Henke from:
    Jo Ann Emerson, Member of Congress from the State of 
      Missouri, House of Representatives.........................   206
    Kenny Hulshof, Member of Congress from the State of Missouri, 
      House of Representatives...................................   207
    Wm. Lacy Clay, Member of Congress from the State of Missouri, 
      House of Representatives...................................   208
    Emanuel Cleaver, II, Member of Congress from the State of 
      Missouri, House of Representatives.........................   209
    Roy Blunt, House Majority Whip, Member of Congress from the 
      State of Missouri, House of Representatives................   210
    Ken C. Nicolas, Executive Director, Criminal Justice 
      Division, Office of the Governor, State of Texas...........   211
    Sheriff Edmund M. ``Tex'' Sexton, President, National 
      Sheriffs' Association......................................   212
    Chief William D. Killen, President, International Association 
      of Fire Chiefs.............................................   214
    James Burns, President, National Association of State Fire 
      Marshals...................................................   215
    Chuck Canterbury, National President, Grand Lodge, Fraternal 
      Order of Police............................................   217
    R. Gil Kerlikowake, Chief of Police, Seattle Police 
      Department, City of Seattle................................   218
    David A. Warm, Executive Director, Mid-America Regional 
      Council (MARC).............................................   219
    Chief Steve Holle, President, Western Missouri Fire Chiefs 
      Association................................................   220
    Chief Richard A. Dyer, Fire Director, Office of the Fire 
      Chief, Kansas City, Missouri...............................   221
    Thomas J. Charron, Executive Director, National District 
      Attorneys Association (NDAA)...............................   222
``Contacts between Police and the Public, Findings from the 2002 
  National Survey,'' Bureau of Justice Statistics, U.S. 
  Department of Justice, submitted by Senator Lieberman..........   223


          NOMINATIONS OF GEORGE W. FORESMAN AND TRACY A. HENKE

                              ----------                              


                       THURSDAY, DECEMBER 8, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, and Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today, the Committee will consider nominations for two key 
positions at the Department of Homeland Security, George 
Foresman to be the Under Secretary for Preparedness, and Tracy 
Henke to be the Executive Director of the Office of State and 
Local Government Coordination and Preparedness.
    The Preparedness Directorate at the Department is new. It 
is part of the organizational changes that resulted from the 
Secretary's second-stage review completed this summer. This 
directorate will consolidate the Department's existing 
preparedness efforts, including planning, training, conducting 
exercises, and awarding grants. In addition, this new 
directorate will include the U.S. Fire Administration, a Chief 
Medical Officer, an Assistant Secretary for Infrastructure 
Protection, and an Assistant Secretary for Cyber and 
Telecommunications Security.
    According to Secretary Chertoff, this new directorate will 
remove partitions among functions critical to our Nation's 
preparedness for catastrophic events. While I agree with the 
general concept of consolidating preparedness resources, I am 
reserving judgment on whether FEMA's preparedness assets should 
be removed from its core response capabilities. Preparedness 
and response are two sides of the same coin, and separating 
these functions seems unwise to me.
    The President's nominee, George Foresman, brings 
outstanding credentials to this new and challenging position. 
He is a highly respected veteran emergency management 
professional with more than 20 years of emergency preparedness 
experience, including his current position as Assistant to the 
Governor of Virginia for Commonwealth Preparedness. In addition 
to being Virginia's principal advisor and coordinator for 
homeland security and emergency response, he also serves as the 
Governor's cabinet-level liaison with the military commands and 
installations throughout Virginia. Mr. Foresman has served at 
the national level as well. He was Vice Chairman of the 
Advisory Panel to Assess Domestic Response Capabilities 
Involving Terrorism, which was established by Congress in 1998 
and completed its work in 2003.
    The Office of State and Local Government Coordination and 
Preparedness is the Federal Government's lead agency 
responsible for preparing the Nation against terrorism by 
assisting States, local and tribal jurisdictions, and regional 
authorities. The office, now housed within the Directorate for 
Preparedness, provides a broad array of assistance to America's 
first responders through funding, coordinated training, 
equipment acquisition, and technical assistance.
    One of the office's primary responsibilities is 
implementing the Homeland Security Presidential Directive 
Number 8, which charged the Department of Homeland Security 
with establishing a National Preparedness Goal. This effort 
brings together experts from Federal, State, and local 
governments as well as the private and nonprofit sectors to 
create an integrated system of preparedness. In addition, the 
office distributes billions of dollars in grants to the States 
and territories, as well as to firefighters, law enforcement, 
emergency medical responders, ports, transit authorities, and 
other homeland security stakeholders.
    The Members of this Committee have worked tirelessly to 
strengthen the homeland security grant program and to include 
strong new accountability measures. It is my hope that Ms. 
Henke will pledge to work with the Committee to ensure the 
enactment of this legislation that is supported by 71 Senators. 
This legislation would stop the troubling and persistent 
decline in homeland security funding. It doubles the funds 
allocated according to the Secretary's assessment of risk, 
threat, and vulnerabilities, provides a meaningful baseline of 
funds to each State so that the Nation as a whole can achieve 
essential levels of preparedness, and holds State and local 
governments accountable for spending funds in ways that help to 
achieve specific preparedness goals.
    Leading this office is an enormously important job. The 
nominee before us, Tracy Henke, has considerable relevant 
experience working effectively with State and local 
governments. I would note that the Committee has received 
letters recommending her from a number of organizations, 
including the National Association of State Fire Marshals, the 
Fraternal Order of Police, the National Sheriffs' Association, 
and the International Association of Fire Chiefs, and without 
objection, all of those letters will be included in the record, 
as well as the letters that have been received by the Committee 
in support of George Foresman.\1\
---------------------------------------------------------------------------
    \1\ The letters in support of Mr. Foresman and Ms. Henke appear in 
the Appendix on pages 200 through 222, respectively.
---------------------------------------------------------------------------
    Ms. Henke currently is a Deputy Associate Attorney General 
for the Department of Justice. Prior to joining the Justice 
Department, she served as a Senior Policy Advisor for Senator 
Bond, where she worked closely with firefighters and the law 
enforcement community at the State and local levels. She is 
also strongly recommended by former Attorney General John 
Ashcroft, who described her to me as a ``faithful public 
servant, skillful and hard working.''
    I welcome both nominees to the Committee, and I look 
forward to hearing their testimony.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman. It strikes me 
that I should say that though the Senate may be in recess, 
under your leadership, this Committee is not.
    Chairman Collins. We never rest.
    Senator Lieberman. Never rest, no. This is our second 
hearing of the day. Thanks for convening this one to consider 
these two nominees to two very important positions at the 
Department of Homeland Security, and I welcome both Mr. 
Foresman and Ms. Henke to this hearing.
    As the Chairman has said, these are the first two 
nominations for positions in the Preparedness Directorate, 
which has been newly created by Secretary Chertoff's second-
stage review. I must report that I personally asked the 
Secretary to hold off on his reorganization of DHS's emergency 
preparedness and response structure until this Committee 
completes its investigation into the lack of preparedness at 
all levels of government exposed by Hurricane Katrina.
    The disarray surrounding that disaster has obviously shaken 
the confidence of a lot of people in our country and the 
capacity of our government to protect them. I am hopeful that 
our investigation, a hearing of which was held this morning, 
will produce recommendations that would be helpful to the 
Department of Homeland Security internal management structure. 
I have told the Secretary that this Committee may, therefore, 
write legislative changes after we have thoroughly reviewed the 
record and are confident we know everything about what went 
wrong during Hurricane Katrina.
    Nonetheless, I am pleased that the President has nominated 
Mr. Foresman for the position of Under Secretary for 
Preparedness at DHS. He is an experienced emergency manager, 
has been a first responder, a leader in homeland security in 
Virginia, Vice Chair of the Gilmore Commission, and is widely 
respected in the emergency management community.
    The Under Secretary for Preparedness will have a critical 
role to play helping our country prepare for all hazards, 
including everything from the next terrorist attack to the next 
major hurricane or other natural disaster.
    Earlier this week, as I am sure most of us saw, the 9/11 
Public Discourse Project, formerly the 9/11 Commission, issued 
its final report card on our Nation's lack of preparedness as 
they saw it. Some of the grades, I thought, were fair. Some of 
them, I thought, were not fair. I thought some of the most 
significant accomplishments in which the Chairman and I, and 
Members of our Committee as well as the Senate and the House, 
had a lot to do with, I am proud to say, were not as highly 
noted. These accomplishments were, in fact, the top two 
recommendations of the 9/11 Commission, which was the creation 
of the Director of National Intelligence and the National 
Counterterrorism Center, which in the Commission's own estimate 
were functioning well.
    But the Commission does in other regards give us a clear 
message that we have not done enough yet, not as much as we 
should, to keep the American people as safe as they deserve to 
be. If confirmed, Mr. Foresman will obviously be in a position 
to address some of the outstanding problems the Public 
Discourse Project identified. Top among them, I would say, is 
the inability of our Nation's first responders to talk to one 
another across jurisdictional and disciplinary lines, and in 
this regard, I am pleased to note that under Mr. Foresman's 
leadership, Virginia was one of the first States to develop a 
strategic plan for interoperability, although obstacles, 
including inadequate and inconsistent funding, still remain as 
they do in most States.
    Mr. Foresman, if you are confirmed, you will be in a 
position to forge a national strategy to achieve 
interoperability, strengthen Federal leadership, and provide 
sufficient funding, all of which are components of legislation 
which Senator Collins and I have offered and which now awaits 
action on the Senate floor, after having been reported out of 
Committee.
    Madam Chairman, the Under Secretary for Preparedness and 
the Director of the Office of State and Local Coordination and 
Preparedness will also have the opportunity to address homeland 
funding. While debate has focused on the funding formula for 
homeland security grants, less attention has been paid to the 
fact that funding for first responders has, in the last 3 
years, been dramatically reduced. That is unacceptable, and I 
hope we can work together to turn it around.
    Finally, I want to welcome Ms. Henke, thank her for her 
years of public service, and just express publicly some 
concerns that I have about your nomination. Those are 
allegations that while you were at the Department of Justice, 
some of the actions that you took there in the administration 
of your office may have undermined the office's reputation for 
objectivity and independence.
    In one incident earlier this year, the allegations are that 
you demanded that the Bureau of Justice Statistics delete from 
a press release\1\ information about significant racial 
disparities in the treatment of motorists stopped by police, 
that you insisted over repeated objections from the director of 
the office--and in fact, the release was never issued because 
he decided that it was misleading in the form that you ordered 
him to release it. Soon after, this man, whose name was Larry 
Greenfeld, who had been a civil servant for 23 years, was told 
without explanation that he was being dismissed from his 
position. I hope today you will take this opportunity to 
address the questions that I, and others, have about your 
involvement in this episode.
---------------------------------------------------------------------------
    \1\ The press release appears in the Appendix on page 198.
---------------------------------------------------------------------------
    I must say that my concerns occur in the context of recent 
disclosures that the Department of Justice political appointees 
overruled career staff in sensitive cases involving minority 
rights. In August, a team of lawyers and analysts at the Civil 
Rights Division recommended rejecting a Georgia voter 
identification law because it was likely to discriminate 
against African American voters, but they were overruled the 
next day by political appointees. And then this month, we 
learned that top Department of Justice officials had overruled 
a unanimous determination by civil rights staff at the 
Department that a Texas redistricting plan violated the Civil 
Rights Act.
    In this context, I am concerned that the considerable 
discretion that Congress has given the Department in the 
administration of homeland security grants will be exercised, 
if you are confirmed, in a fair and transparent manner. I hope 
that you will find it possible to give the Committee your 
assurances in that respect today.
    Madam Chairman, if confirmed, these two nominees will have 
to work closely with our nation's first responders, the private 
sector, and State and local officials to assure that we do a 
much better job of preparing for whatever may come.
    I thank you for holding the hearing, and I look forward to 
the witnesses' testimony. Thank you very much.
    Chairman Collins. Thank you.
    We are very pleased to be joined by the distinguished 
Senator from Delaware. I know he is often burning to share his 
views, so before calling on Congresswoman Emerson, I want to 
give the distinguished Senator a chance to make any opening 
comments he would like.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. I just want to say to our witnesses, 
yesterday was Senator Collins' birthday----
    Chairman Collins. That wasn't a burning comment.
    Senator Carper. And I was unable to reach her to wish her 
in person a happy birthday, but I have to say, she is looking 
great for 30, and we are honored to serve under her leadership, 
despite her youth. Belated happy birthday.
    It is always good to be with my friend, Senator Lieberman. 
He and I were both over in the Middle East about the same time.
    I look forward to hearing from our witnesses. They are 
going to pull me out of here in a little bit, but I look 
forward to hearing you, and my staff is going to monitor 
everything else that takes place. Thank you very much.
    Senator Lieberman. I know Senator Carper knows this, but in 
case he doesn't, my birthday is February 24. [Laughter.]
    Chairman Collins. I am writing it down. [Laughter.]
    I am very pleased to welcome to the Committee Congresswoman 
Jo Ann Emerson, who is here to introduce one of our nominees 
today. We very much appreciate your coming over to this side of 
the Capitol, particularly since I know the House is in session, 
and we are very pleased to hear your comments. Thank you for 
being here.

STATEMENT OF HON. JO ANN EMERSON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Ms. Emerson. Thank you, Madam Chairman, Senator Lieberman, 
and Senator Carper. You will have to forgive me because we are 
in a series of votes right now, and fortunately, I have about a 
15-minute window. But I am honored to be here, and I do want to 
thank you for the opportunity to speak and introduce to you Ms. 
Tracy Henke as she is considered by your Committee for the 
position of Executive Director of the Office of State and Local 
Government Coordination and Preparedness.
    As a member of the Homeland Security Subcommittee on 
Appropriations, I am very pleased that we are filling these 
spots, I want to mention. But we should have only the highest 
standards for this position at the Department of Homeland 
Security, and Tracy Henke certainly meets these high standards.
    I have long known Tracy to be a dedicated, hard working, 
and extremely intelligent public servant. She shares your 
commitment and shares my commitment to enabling first 
responders at all levels of government to be prepared, well 
integrated, and cohesive in their response to any emergency. In 
her illustrious service to her fellow citizens, she has not yet 
encountered a challenge that she has not been able to meet. She 
is also intelligent, personable, flexible, and thorough. All of 
these great qualities have served her well throughout her 
career, and they would also be a great boon to our Nation and 
to our national mission of homeland security.
    As Deputy Associate Attorney General and Acting Assistant 
Attorney General at the Department of Justice, Ms. Henke has 
repeatedly demonstrated her regard for the law and her 
enthusiasm for law enforcement. She has guided programs of 
national significance, such as the Amber Alert program, in her 
efforts to make our Nation safer for our citizens.
    In addition to her extensive legal credentials, Tracy 
possesses a significant public policy background from her years 
of service as a senior staff member in the U.S. Senate, and I 
think she is able to approach decisions from both policy and 
legal perspectives, which I believe, is an invaluable 
combination. Also, she is familiar with the separate homeland 
security challenges faced in both rural and urban parts of the 
country.
    Ms. Henke's qualifications for this position are very clear 
from simply reviewing her resume, and we are certain to hear a 
great deal more in her testimony before the Committee today.
    But today is also an opportunity for you to see Tracy Henke 
and see in Tracy Henke what I know very well. She has sincere 
enthusiasm for her work, her stalwart patriotism, and her rare 
ability to work with people regardless of any difference 
between them. She is a leader, by example, because her 
character rings true.
    I welcome the Committee's consideration of Ms. Henke and 
the beginning of her service in this new capacity to the 
benefit of every American and the safety and security of our 
Nation. I am very honored to introduce to you Ms. Tracy Henke.
    Chairman Collins. Thank you very much, Representative 
Emerson. I appreciate your endorsement of the nominee. I know 
you do need to leave, and I am pleased to excuse you at this 
time.
    Ms. Emerson. Thank you, Madam Chairman.
    Chairman Collins. For the benefit of my colleagues, I also 
want to note that Senator Warner, who is a Member of this 
Committee, has submitted statements in support of both Mr. 
Foresman and Ms. Henke. Senators Bond and Talent have submitted 
statements in support of Ms. Henke's nomination, and Senator 
Allen has submitted a statement in support of Mr. Foresman. All 
of those statements will be included in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statements of Senators Warner, Bond, Talent and 
Allen appear in the Appendix on pages 23 through 31, respectively.
---------------------------------------------------------------------------
    Both nominees have filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had their financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made a part of the hearing record with 
the exception of the financial data, which are on file and 
available for public inspection in the Committee's office.
    Our Committee's rules require that all witnesses at 
nomination hearings give their testimony under oath, so would 
you please both stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Foresman. I do.
    Ms. Henke. I do.
    Chairman Collins. Thank you.
    Mr. Foresman, you may proceed with your statement.

 TESTIMONY OF GEORGE W. FORESMAN\2\ TO BE UNDER SECRETARY FOR 
       PREPAREDNESS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Foresman. Thank you, Chairman Collins, Senator 
Lieberman, Senator Carper. Thank you for the opportunity to 
appear before you today to discuss my qualifications to serve 
as the Under Secretary for Preparedness at the U.S. Department 
of Homeland Security.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Foresman appears in the Appendix 
on page 35.
      The biographical information of Mr. Foresman appears in the 
Appendix on page 37.
      The pre-hearing questions for Mr. Foresman appear in the Appendix 
on page 44.
      The post-hearing questions for Mr. Foresman appear in the 
Appendix on page 114.
---------------------------------------------------------------------------
    I truly believe that there is no higher honor than serving 
the citizens of America in positions of responsibility and 
public trust. I also want to extend my deepest thanks and 
appreciation to President Bush and to Secretary of Homeland 
Security Michael Chertoff for their confidence, as evidenced by 
this nomination. I am humbled simply by the nomination and 
recognize the enormous responsibilities that will be entrusted 
upon me if it is the will of the U.S. Senate to confirm me. I 
do not take lightly the expectations of me by President Bush, 
Secretary Chertoff, the U.S. Congress, and most importantly, 
the citizens of our great Nation.
    Let me begin by acknowledging my immediate family who could 
not be with me today. My wife and children are busy preparing 
lists and other things for a special visitor who is expected at 
our house in about 17 days. Now, in the eyes of a 3- and 5-
year-old, Daddy's day before the U.S. Senate, while important, 
pales in comparison to getting the list just right.
    I am fortunate to have a partner in marriage whose prayers, 
sensibility, and tremendous support have allowed me to be a 
servant of the people for my entire professional career. She 
believes in me, she believes in the ideal of public service, 
and is an all-important anchor and the most important anchor in 
my life that keeps me from drifting.
    Public service is sometimes said to represent sacrifice. 
While there are sacrifices, I would offer there is no greater 
calling or honor for each of us as Americans. My father and 
mother instilled in my three brothers and me a deep and 
unwavering spirit of public service. My parents were phenomenal 
role models. They underscored each and every day that our most 
important duties in life are to God, family, and our great 
Nation. Both are no longer living, but our family keeps their 
spirit with us in how we conduct our own lives each and every 
day.
    My oldest brother has just returned from a second tour of 
duty in the Middle East as an Army officer. One has returned 
from the Gulf Coast where, as a Coast Guard employee, he 
assisted local governments distribute critical relief supplies 
after Katrina. And my third brother today is pulling duty as an 
officer in a fire department in Western Virginia. We are proud 
of each other and our respective roles to make America, its 
communities, and our citizens safer and more secure.
    Like my brothers, every day, thousands of men and women 
across America go to work in the public and private sector with 
jobs critical to the safety and security of communities, 
States, the Nation, and businesses. They help us manage the 
risks inherent in a Nation that is the centerpiece of a global 
economy and the beacon of democracy around the globe. Their 
work provides comfort and confidence to ordinary citizens and 
customers that someone is working every day to keep them safe 
and to meet their needs. It is important work and it is 
preparedness. Preparedness is not and cannot simply be a 
function of government or elements of the private sector. It 
must be the culture in a culture of government, business, and 
society.
    I would offer that we are at a rare crossroads in the 
history of this great Nation, where the hatred of enemies has 
combined with the ferocity of Mother Nature to underscore the 
importance for disciplines, professions, levels of government, 
and our citizens to do their part to better prepare for 
emergencies and disasters of all kinds, including terrorism. 
The tragic attacks of September 11 and the widespread 
devastation from Katrina have provided searing images of 
destruction seen around the globe and felt in some way by every 
American. These drive us to be better prepared.
    But we should also be reminded that thousands of crisis 
events are threatened or will occur today and every day across 
America, and most will require limited response and are not 
likely to receive widespread attention. However, to the people 
affected, many of these will represent the greatest calamity of 
a lifetime. These more limited events also drive us as a Nation 
to be better prepared.
    But wanting to be better prepared and actually doing it 
remains a challenge. Differing perspectives on how to best make 
advancements, limited resources, and the necessity of 
addressing the crisis of the moment have the potential to cause 
us to lose sight of the ultimate goal of enhancing 
preparedness. Two things are clear from more than 22 years of 
experience. First, I have not met anyone, anyone in America, 
who does not share a desire for a safer and more secure 
America. Second, we must provide a better structure for 
synchronizing the Nation's preparedness efforts.
    Our greatest challenge also is our greatest opportunity. We 
have a greater ability today than ever before to strengthen our 
systems and processes so that irrespective of the cause, size, 
location, or scope of a crisis, we improve our levels of 
preparedness. A strong focus on preparedness will allow us to 
better manage the risks that we face each and every day in our 
lives. Preparedness is that continuum of how we deter, prevent, 
respond to, and recover from the full range of hazards and 
risks as government, as our private sector, and as citizens.
    Those who are threatened or become victims of an emergency 
or disaster, irrespective of the cause, expect that the 
structure, strategy, management, and leadership of all of the 
organizations and people responsible for managing risk will 
operate in a harmonized and a synchronized manner. Our 
collective responsibility in unity is to ensure that we adhere 
to the opportunity, to make sure that we achieve this 
harmonization, while at the same time helping ordinary citizens 
become a stronger part of America's preparedness culture.
    Based on my more than 20 years of public service in wide-
ranging front-line and executive-level experience at the local, 
State, and national levels, I believe that this is our moment 
in time and our moment in the history of the United States to 
make unprecedented advancements in our Nation's preparedness. I 
hope I am given the opportunity to contribute to these 
advancements as the Under Secretary for Preparedness. I thank 
you very much for the courtesy of this hearing, and I look 
forward to your questions.
    Chairman Collins. Thank you. Ms. Henke.

TESTIMONY OF TRACY A. HENKE\1\ TO BE EXECUTIVE DIRECTOR, OFFICE 
 OF STATE AND LOCAL GOVERNMENT COORDINATION AND PREPAREDNESS, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Henke. Thank you, Chairman Collins, Senator Lieberman, 
and Senator Carper. It is a pleasure to be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Henke appears in the Appendix on 
page 127.
      The biographical information of Ms. Henke appears in the Appendix 
on page 129.
      The pre-hearing questions for Ms. Henke appear in the Appendix on 
page 136.
      The post-hearing questions for Ms. Henke appear in the Appendix 
on page 172.
---------------------------------------------------------------------------
    I want to first say thank you to the President for the 
confidence that he has shown in me by nominating me as the 
Executive Director for the Office of State and Local Domestic 
Preparedness and Coordination--if I could even get the office 
straight. With the reorganization--it has changed on me. In 
addition, I would also like to take the opportunity to thank 
Secretary Chertoff for the confidence and trust that he has 
also shown in me. I have had the opportunity to know the 
Secretary for several years now, and if confirmed, I look 
forward to being part of his team at DHS.
    I also thank Congresswoman Emerson, and I know that 
Congressman Cleaver also wanted to be here, but I am certain 
the votes on the House side have interrupted his transportation 
and his appearance here today. I want to thank Congresswoman 
Emerson, though, for her kind words, her support, and her 
friendship. Additionally, I want to thank Senators Bond, 
Talent, and Warner. They couldn't be here today, but throughout 
the years, they have been strong advocates and supporters of 
me, and for that, I am grateful. I am blessed to have known, as 
well as to have worked with, all these great public servants. I 
am grateful for their mentoring and, more importantly, their 
friendship.
    In addition, I would be remiss if I didn't take the 
opportunity to thank my family and my friends, thank them for 
their support, their guidance, their love, and, sometimes most 
importantly, their patience.
    With September 11, Hurricanes Katrina, Rita, and Wilma, as 
well as other events from around the world, our national 
awareness of threats, terrorist threats, natural disasters, and 
other events has sharpened. As a result, all of us, especially 
those involved directly or indirectly in public safety, 
understand our collective responsibility to work to prevent but 
also to prepare and respond to those threats, as well as our 
duty to build a safer and more secure world.
    Throughout my years in public service, but specifically at 
the Department of Justice, I have been honored, but more 
importantly, grateful for the opportunities to support, to 
serve, and to partner with the public safety community, 
individuals who are on the front lines every single day, 
individuals who are making a difference.
    Working on issues such as September 11, Katrina, body 
armor, DNA, Medal of Valor, and countless others, I have been 
reminded and shown that our Nation's first responders put 
themselves--intentionally put themselves in positions where 
they will be called upon to show their courage, their 
dedication, and their selflessness every single day. Men and 
women in public safety have a perfect sense of the dangers they 
might face. Yet despite that, they raise their right hand, 
swear the oath, and they take the job anyway.
    If confirmed, I hope to be given the opportunity to raise 
my right hand, to swear the oath, and to continue the 
opportunity to serve with and for, as well as support and 
partner with the tremendous public safety community serving and 
protecting all of us and this great Nation.
    If confirmed, I commit to continuing the effort to build 
partnerships at and across all levels of government, with the 
private sector, and with everyday citizens as we work to 
provide and improve upon the capabilities necessary to better 
prepare and protect America. If confirmed, I commit to 
listening to and working with the first responder community, 
local, State, and tribal leaders, and all stakeholders, as we 
work toward the common goal of getting the best value and 
return for our homeland security investments.
    If confirmed, I commit to working on improving the 
preparedness of citizens across the country, knowing that an 
alert, informed, and knowledgeable public makes a tremendous 
difference. If confirmed, I commit to working with the Congress 
and others in the Administration to ensure a coordinated and 
informed effort to assist States, communities, and our Nation's 
first responders better prevent, prepare, and if need be, 
respond and recover from whatever hazards we might confront. If 
confirmed, I commit my energies to making a difference in this 
Nation's quest for preparedness.
    Thank you for the opportunity to be here today.
    Chairman Collins. Thank you. I am going to start my 
questioning with the standard questions that we ask of all 
nominees. First, is there anything in your background that you 
are aware of that might present a conflict of interest with the 
duties of the office to which you have been nominated? Mr. 
Foresman.
    Mr. Foresman. No, ma'am.
    Chairman Collins. Ms. Henke.
    Ms. Henke. No.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Foresman. I do not.
    Ms. Henke. No.
    Chairman Collins. And finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted Committee of Congress if 
you are confirmed? Mr. Foresman.
    Mr. Foresman. Yes, ma'am.
    Chairman Collins. Ms. Henke.
    Ms. Henke. Yes, Senator.
    Chairman Collins. We will now start a round of questions 
limited to 6 minutes each for the first round.
    Mr. Foresman, in announcing the results of the second-stage 
review, Secretary Chertoff stated that we ``are not where we 
need to be as a Nation in the area of preparedness.'' While 
certainly the preparation for and response to Hurricane Katrina 
only underscores that fact, you have been an emergency 
management official at the State level. You have worked closely 
with Federal officials. What, in your judgment, went wrong with 
Hurricane Katrina in terms of preparedness?
    Mr. Foresman. Senator, thank you for the question. I do not 
have the specific level of first-hand knowledge in terms of the 
decisions as they were made at the local, State, or Federal 
level with regard to Hurricane Katrina. As we look at 
Virginia's perspective in the aftermath of Hurricane Isabel 
several years ago, preparedness must be a shared vision of what 
is it that different organizations are going to do in advance 
of a potential crisis event to be prepared to prevent, deter, 
and to respond and recover, and historically, what we have 
found in Virginia is shortfalls with regard to preparedness 
simply because organizations have not had a shared vision of 
what is it that we need to do to be stronger and more resilient 
in terms of our ability to deal with emergencies and disasters.
    Chairman Collins. As a State official, what has been your 
biggest frustration in working with the Department of Homeland 
Security?
    Mr. Foresman. Well, Senator, having watched the evolution 
of the Department of Homeland Security, I would say as a 
consumer out there that my first point is the organization 
continues to mature, and it is nurtured every day, and it is 
certainly a much stronger and better organization in terms of 
my interaction with them as a State official than when they 
were created. That is the natural evolution of when you would 
amalgamate 22 Federal agencies and 180,000 employees. That is 
an organizational issue.
    But I think, clearly, the big issue from my State 
perspective is we have got to make sure that there is a common 
identity within the Department, that there is a common 
direction forward, and I think, frankly, there are many 
components of DHS as well as the entire Federal family that 
work with States and communities on preparedness planning, 
training, and exercising--FEMA, Coast Guard, Secret Service, 
Health and Human Services, DOD. I think the biggest frustration 
with DHS is the biggest frustration that we see across our 
Federal interagency, is an inconsistent vision of what is 
preparedness and how do we go about strengthening preparedness.
    Chairman Collins. Thank you. Ms. Henke, there has been 
considerable controversy over actions that you took with regard 
to a Bureau of Justice Statistics report entitled, ``Contacts 
between Police and the Public: Findings from the 2002 National 
Survey.''\1\ According to information compiled by the Committee 
staff, you edited a proposed press release in a way that would 
have taken out specific information showing some disparities in 
treatment by police. First of all, please explain why you made 
those edits.
---------------------------------------------------------------------------
    \1\ Report entitled, ``Contacts between Police and the Public: 
Findings from the 2002 National Survey,'' appears in the Appendix on 
page 223.
---------------------------------------------------------------------------
    Ms. Henke. Of course. I thank you for the question, as 
well. Editing press releases is a regular part of the job of 
the principal deputy or the Assistant Attorney General or most 
leaders in the different components, I am certain not just at 
the Department of Justice, but also throughout other agencies, 
as well as when I worked in the Senate. And so it was something 
that I am very used to doing.
    The draft press release was potentially edited by several 
people before it even reached my desk, and when it reached my 
desk, it was edited by my deputy, who suggested some changes to 
the draft press release, which I concurred with, so therefore I 
take ownership of those changes.
    The edit that was made was--the reason for the edit was 
because it didn't accurately portray the information in the 
underlying report. As was pointed out, the report itself is 
contacts with police, and there are hundreds upon hundreds of 
statistics that could have been pulled from that report. But in 
this case, they tried to condense it down to a press release 
that is a page or two long, and so you can't get all the 
information in there.
    The sentences that were proposed to be stricken that I 
concurred with were misleading. The sentences did say that 
blacks and Hispanics were more likely to be searched once 
pulled over. The next sentence in the report itself, however, 
says that you cannot conclude that race is the factor. You 
can't conclude that race is the factor because these numbers 
didn't take into account behavior of the individuals that were 
pulled over. It didn't take into account potentially 
demographics of the areas. So the report itself says, you 
cannot conclude that race was the factor in the search.
    In addition to that, another fact, for instance, that was 
not in the press release is that over 90 percent of the 
individuals who were surveyed for this document said that the 
actions of the police were appropriate. That also includes 90 
percent of the people that were searched concluded that the 
actions of the police were appropriate.
    So the sentences in the press release were misleading. You 
can't put in--the press release shouldn't contain every 
statistic in the report, and so, therefore, in conversations 
with the deputy and then in conversations with the Director of 
the Bureau of Justice Statistics, it was determined, and I did 
make a decision, that those sentences should be stricken and 
that the press release could go ahead and be issued.\1\
---------------------------------------------------------------------------
    \1\ The press release appears in the Appendix on page 198.
---------------------------------------------------------------------------
    Mr. Greenfeld had some disagreement with that, and it was a 
discussion that we had that more than 70 percent of the Bureau 
of Justice Statistics reports don't have press releases ever 
issued. In addition to that, the document is available online 
unedited and was distributed to over 600 media outlets.
    Chairman Collins. Did you make any changes in the 
underlying report?
    Ms. Henke. Absolutely not.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. I'm going to 
continue the line of questioning because as I said in my 
opening statement, I was concerned both by the news reports of 
this incident and then by what my staff informed me after the 
staff interview.
    I know you have said you wanted removed from the release 
the findings of racial disparity in the treatment of motorists 
because the report could not explain the reasons for the racial 
disparity, but you also wanted the release to include a finding 
that there were no racial disparities in the rate at which 
motorists were stopped. Can you explain the distinction between 
those two?
    Ms. Henke. Actually, it wasn't a statistic that I asked to 
be inserted. That statistic that you reference was part of the 
press release prepared by the Bureau of Justice Statistics, not 
a statistic that I asked to be added.
    Senator Lieberman. So you don't see any inconsistency in 
including the one but excluding the other?
    Ms. Henke. Considering that the report, once again, was 
available online, was distributed to over 600 media outlets, 
and that in the highlights of the report itself, concluded the 
statistic that you are currently referencing, it did not 
include the statistic that was stricken from the report. So I 
didn't necessarily view it as being inconsistent because even 
in the highlights of the actual report, it wasn't included.
    Senator Lieberman. The news release that Mr. Greenfeld's 
office drafted would have reported that the police searched 
white motorists 3.5 percent of the time, but black motorists 
more than 10 percent of the time and Hispanic motorists more 
than 11 percent of the time. It also describes how police were 
approximately three times more likely to use force or threaten 
to use force against Hispanics and blacks than against whites 
that they had stopped.
    My question really is to explain to me why you thought that 
those statistical findings, that is the 3.5 percent compared to 
the 10 and 11 percent, were not important or newsworthy and, 
therefore, should not have been included in the release.
    Ms. Henke. Oh, it is not that I don't consider them 
important, sir. They are included in the report, and the report 
which once again was distributed to over 600 media outlets and 
available online for all to see. The Bureau of Justice 
Statistics website gets over 20,000 hits a day, on average, and 
so that information is readily available. And once again, the 
majority of the Bureau of Justice Statistics reports do not 
have press releases associated with them.
    There is additional statistics in there that, once again, 
help complete or can help complete the picture a little bit, 
and once again, it goes back to, for instance, the fact that 90 
percent of those, including those that were searched, whites, 
blacks, and Hispanics, believed that the actions of the police 
were appropriate. That information wasn't in the press release, 
either.
    And so having the entire information available, and once 
again, distributed to over 600 media outlets and available 
online, the information is readily available and it is 
important.
    Senator Lieberman. Let me ask this question so I have 
clarity on this myself. Do I understand correctly that you 
argued for a release to say that no significant racial 
disparities existed among individuals stopped by police?
    Ms. Henke. No.
    Senator Lieberman. You did not argue for that 
affirmatively----
    Ms. Henke. Absolutely not.
    Senator Lieberman [continuing]. But you wanted to take out 
the contrary conclusion, is that right?
    Ms. Henke. The only thing I concurred with, so I take 
ownership of the proposed change in the draft press release 
that was edited by my deputy in the office, I did not propose 
any addition. All I proposed and all I concurred with was the 
striking of the sentences that were misleading without full or 
without complete information, without, for instance, the next 
sentences in the report or the additional statistics.
    Senator Lieberman. Why not include the next sentences in 
the report and the additional statistics in the press release?
    Ms. Henke. It is one of those things, and maybe it is from 
my time on the Hill and the fact that press releases--we were 
always told once you get off--once it is past page one, it is 
unlikely that people are even going to look at it, so a press 
release is supposed to hit the highlights. The press release 
isn't--it is supposed to hit the highlights and not include 
absolutely everything. It can entice people maybe to read the 
report. So I didn't view this as necessarily needing more 
information. The information, once again, was readily available 
and was available for all the media and the general public to 
see in the report.
    Senator Lieberman. Let me ask you a different kind of 
question. Do you agree that the matter, the problem of racial 
profiling, is an important public issue?
    Ms. Henke. I do concur with that, and I know that the 
President in the State of the Union, I believe the State of the 
Union a year or two ago, also stated that it is an important 
issue and that it must end.
    Senator Lieberman. Let me ask you a couple of questions 
about another part of this. I will try to be quick. Thanks, 
Madam Chairman.
    A few weeks after your disagreement with Mr. Greenfeld, as 
you know, he was called into the office of an Associate 
Attorney General Robert McCallum to discuss the incident. 
Actually, stop me if you disagree with anything I am saying.
    Ms. Henke. I have been informed. I was not informed that 
meeting was taking place----
    Senator Lieberman. You didn't know about it, but you know 
now?
    Ms. Henke. Yes.
    Senator Lieberman. A few weeks later, Mr. Greenfeld was 
summoned to the White House Personnel Office, where he was 
informed that he was going to be relieved of his position as 
Director of the Bureau of Justice Systems.
    Ms. Henke. I was informed of that after the fact.
    Senator Lieberman [continuing]. Of that afterward.
    Ms. Henke. Yes.
    Senator Lieberman. And this is my point. In responding to 
the Committee's pre-hearing questions and during your staff 
interview, you said that you had no role in, knowledge of, or 
opinion about the decision to remove Mr. Greenfeld after 23 
years with the Bureau of Justice Systems, and I guess the 
record shows that he consistently got outstanding evaluations 
through all the administrations he had served, both Democrat 
and Republican. So the question I have is, since the Director 
of the Bureau of Justice Systems, Mr. Greenfeld, reports to the 
Assistant Attorney General for the Office of Justice Programs 
and you were Acting Assistant Attorney General from January to 
June of this year, it is surprising that you were not consulted 
or notified that the director of an agency for which you were 
responsible was about to be removed. How do you explain that?
    Ms. Henke. I am not necessarily surprised by that. Mr. 
Greenfeld was a career public servant. Mr. Greenfeld became a 
Presidentially appointed, Senate-confirmed individual in 2001 
or 2002. He chose to take a political appointment, 
Presidentially appointed, Senate-confirmed. As Acting Assistant 
Attorney General, I did not anticipate or expect consultation 
pertaining to other Presidentially appointed, Senate-confirmed 
individuals at the Office of Justice Programs. They serve at 
the pleasure of the President, and as a political appointee 
myself, I didn't anticipate or expect, once again, having any 
role in the hiring or conversations of his employment.
    Senator Lieberman. Do you know why he was told that he 
would be dismissed?
    Ms. Henke. I have not had any conversations. Other than 
receiving a notification that he was told, I have had no 
conversations with anyone pertaining to the reasons why.
    Senator Lieberman. A final question on this, Ms. Henke. In 
earlier discussions with the Committee staff, you mentioned an 
e-mail that was sent to Mr. McCallum, who I have just cited is 
associate Attorney General. I understand that the e-mail 
forwarded a message from Mr. Greenfeld related to your dispute 
over this press release. I trust you know, but if you don't, we 
have requested a copy of your e-mail to Mr. McCallum from the 
Justice Department.\1\ Do you have a copy of the e-mail 
yourself?
---------------------------------------------------------------------------
    \1\ Copy of the e-mail appears in the Appendix on page 195.
---------------------------------------------------------------------------
    Ms. Henke. I am certain it is on my system, but I am 
confident that if the Committee is working with the 
Department's Legislative Affairs Office, that they will make a 
determination on its availability.
    Senator Lieberman. Have you looked at it lately?
    Ms. Henke. I have not, no.
    Senator Lieberman. You haven't. So it doesn't lead you to 
add anything more to the exchange we have just had about Mr. 
Greenfeld?
    Ms. Henke. I mean, the only thing that the e-mail did was 
forward--was just simply a forwarding of the communication 
exchange. There was no other information in it.
    Senator Lieberman. Then I would ask that, and I presume 
maybe in the process of your position in the Department you 
have to get approval, but I would formally ask that after this, 
you go back and ask if you can share the e-mail with all the 
Members of the Committee.
    Ms. Henke. I am happy to consult with the Department on 
that issue.
    Senator Lieberman. Thanks. Madam Chairman, I apologize for 
this. I am just going to wind this up with this general 
question. Obviously, the concern is if you are confirmed for 
the position for which you have now been nominated, which is a 
powerful position, giving out grants, I mean, to some extent, 
you oversaw activities like this in your earlier position, but 
usually with less discretion, and within formulas mandated by 
Congress, what can you say to us to assure us that you will 
conduct and carry out your responsibilities in a manner that is 
fair, transparent, independent, and nonpartisan?
    Ms. Henke. I can offer you my commitment today to doing 
just that, and I believe I have a track record of doing just 
that. If I may, once again, it was an editing of a press 
release that was never issued and a document that is available 
in its entirety, unedited, online. The information is 
important. I completely concur with that. And therefore, once 
again, it was made available. And I can assure you today, if 
confirmed, every single day that I am in the job, that I will 
act in a professional, impartial, and fair way and make certain 
that the Administration and the Department policies, as well as 
the direction by Congress and the law, is upheld.
    Senator Lieberman. Thank you. Thanks, Madam Chairman, for 
your indulgence in allowing me to complete that line of 
questioning.
    Chairman Collins. I am happy to do so.
    Mr. Foresman, one of the astounding facts that this 
Committee hears over and over again is that some 85 percent of 
our Nation's critical infrastructure is owned not by 
government, but by the private sector. How would you improve 
DHS's relationship with the private sector to strengthen the 
security of America's critical infrastructure?
    Mr. Foresman. Senator, thank you for the question. I would 
offer that as we look at critical infrastructure, this has been 
an area that we paid particular attention to in Virginia even 
prior to September 11, given the potential of natural disaster 
impacts on critical infrastructure. But I think there are a 
couple of key lessons that we learned.
    In kind of our visceral reactive state in post-September 
11, I think there was a lot of focus on the physical protection 
of critical infrastructure and it was driven very much from a 
Federal-centric perspective. It is not right or wrong, it is 
just the simple reality of the environment that we were in in 
the post-September 11 environment. But I think that we have an 
opportunity to step back, if you will, and to engage with our 
private sector partners and to diffuse our critical 
infrastructure protection efforts to where we have more active 
roles with State Governments, local communities, stronger 
collaboration with the private sector, and frankly, what I 
would offer to you is critical infrastructure protection has 
got some tough policy issues. It has got some tough issues that 
are not easily understood.
    And I think that we have now reached the level of maturity 
in terms of our national efforts post-September 11 whereby 
bringing the private sector and our State and local partners, 
our Federal agency partners to the table in maybe a little more 
aggressive way than has been done before. Certainly, we have 
seen this in Virginia. I think we can advance our 
infrastructure protection efforts to the next level.
    The other piece that I would offer is there is great 
incentive for the private sector to protect that critical 
infrastructure. Customers demand service from their businesses. 
Insurance companies are looking to minimize exposure, a whole 
variety of issues. I will tell you, my experience in Virginia 
is there is no weakness in the commitment of the private sector 
to protect that critical infrastructure.
    Chairman Collins. Thank you. Ms. Henke, if confirmed, you 
will oversee the distribution of the Law Enforcement Terrorism 
Prevention program. We have heard a lot of discussion about 
homeland security grant programs and how the funding should be 
allocated. This is a program that gets far less attention and 
yet is vitally important. If we can disrupt, detect, and deter 
terrorist attacks before they occur, that obviously should be 
our highest priority. And indeed, in recent years, this program 
has distributed more than $400 million a year for the purpose 
of preventing a terrorist attack.
    The 9/11 Commission found that the terrorists conducted 
their activities, trained, transited, and hid in places like 
Stone Mountain, Georgia, Norman, Oklahoma, and Portland, Maine. 
We see the clear trend again with the London bombings, where 
the terrorists planned their attacks well away from the target 
in London, but rather in a small town called Leeds.
    Despite all this evidence, the clear bias within the 
Department of Homeland Security, when given discretion on how 
to distribute the Law Enforcement Terrorism Prevention funds, 
is toward large cities. Doesn't this strategy ignore what we 
have learned from where the September 11 terrorists trained? 
Doesn't it ignore the plotting that was done in Leeds? What 
would be your approach to distributing the funds that may well 
lead to the disruption or prevention of a terrorist attack?
    Ms. Henke. Senator, as you are aware, prevention is one of 
the core missions, one of the four main missions of the 
Department of Homeland Security, and it is extremely important. 
It is my hope that we would be able to prevent, instead of 
having to respond and recover from, an attack.
    It is my understanding that the Law Enforcement Terrorism 
Prevention program at this office, like most of the grant 
funding that this office distributes, is provided to the States 
and then the States are required to work with the localities, 
whether rural or urban, suburban, because they know, as you 
know and as I know, that for preparedness, there is no 
arbitrary boundaries. We need to be prepared as a Nation. That 
means rural, suburban, and urban.
    And so what I can commit to you, Senator, is that, if 
confirmed, if there is a better way to distribute resources, I 
commit to looking at that and working to ensure that our 
homeland security resources are providing us the best 
prevention as well as preparedness that we can get.
    Chairman Collins. There has also been extensive discussion 
in recent months on the need for increased border security. One 
cost-effective way that I hear about to increase border 
security is to use State and local law enforcement officials as 
a force multiplier. For a time, the Department did allow 
reimbursement for State and local law enforcement activities 
that assisted Federal officials in securing the border. That 
has changed, however, in recent months. Do you believe that it 
should be an allowable use of the Law Enforcement Terrorism 
Prevention program funding for reimbursement of support of 
border security activities?
    Ms. Henke. Chairman, it is my understanding that the office 
has reviewed this, and in the past, I know that funding was 
available under the Law Enforcement Terrorism Prevention 
program for Code Orange, if there was a Code Orange, that 
entities were allowed to have reimbursement. And then under the 
Urban Area Security Initiative, some areas that were high-risk, 
that had Code Yellow or Orange, were able to use funds to 
reimburse for State and local costs pertaining to the border. 
And I do believe I recall seeing that the Department has 
reviewed this and is working to ensure that there is some 
allowable cost for reimbursement for border security for State 
and locals.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thank you, Madam Chairman.
    Mr. Foresman, I appreciated, in your written responses to 
the Committee, that you talked a lot about the importance of 
planning as a function of preparedness. You pointed out that a 
good plan repays the investment in time and effort in its 
development and rehearsal by shortening the time required to 
gain control over an incident and clarifying roles, 
responsibilities, tasks, and resources before an incident.
    This morning at a hearing in this room, we heard from three 
of the operational professionals of FEMA about their work in 
the days before and immediately after Hurricane Katrina hit 
landfall on the Gulf Coast. It spoke to a crying need for more 
training. It was a very informative hearing in a lot of ways. I 
certainly came out with a better understanding of the extent of 
the deprivation, for one, the denial of adequate funding to 
FEMA personnel for training to prepare them adequately for a 
Katrina-type disaster, and particularly, this roster of 
reserves they have that they call on in a crisis who rarely get 
a chance to train.
    So first question is, if you want to talk a little bit 
about the importance of planning and training? Two, do you 
believe that the Preparedness Directorate should work with FEMA 
to make sure that exercises, training, and response happen and 
are linked to one another?
    Mr. Foresman. Senator, thank you. I would offer that, 
historically speaking over 22 years in Virginia, the plan is 
not necessarily as important as the process of planning because 
with that, you are able to bring people together to mutually 
understand the nature of the crisis or the hazard that they are 
reading themselves to deal with and then intuitively provides 
an element of training, just as you are doing the functional 
planning process, but planning is absolutely critical.
    Now, one of the things that I would offer, Senator, is that 
we have got to get a greater degree of consistency in terms of 
how we go about planning. For instance, in Virginia, we are 
going to be working with FEMA on a day-to-day basis in terms of 
planning for natural disasters or other response and recovery 
activities. We may be working with the U.S. Coast Guard, 
planning for oil spills, the Nuclear Regulatory Commission on 
nuclear power plant incidents, and I think that one of the key 
factors that we see is the necessity not only within the 
Department, but across the entire Federal interagency, and 
frankly, across States and communities and the private sector, 
a much greater degree of consistency in terms of the road 
ahead. And the National Preparedness Goal and the National 
Incident Management System are two critical elements that will 
help us achieve that.
    With regard to the issue of training, the one thing that I 
would offer is that we have a Reservist program in Virginia, 
individuals that we bring on board during emergencies and 
disasters similar to the Reservist program that FEMA has. All 
of us, I think, would agree that appropriate planning and 
training, or appropriate training and education for our 
personnel is critical. I would say that we also have to 
recognize that there is a great deal of training that occurs in 
a real-world event. And so we recognize that there is the 
necessity for classroom activity, but we also recognize there 
is value added from actually being out there and practicing 
what you need to practice on a day-to-day basis.
    But Senator, let me offer this. FEMA is but one component 
of the Nation's preparedness efforts, albeit a very critical, 
and if not the most critical component, because of their 
responsibility for looking in an all-hazards approach. But 
FEMA, the Coast Guard, HHS, DOD, EPA, a host of Federal 
agencies, elements internal to the Department and external to 
the Department, we are going to have to make sure that we do a 
much stronger and better job in terms of our coordination for 
planning, our coordination on training and exercise activities, 
and I would just say everybody is going to have to be at the 
table to make us stronger.
    Senator Lieberman. Well said. Let me ask you a few 
questions about interoperability based on your experience in 
Virginia and what you know generally as you think about going 
forward. What would you say are shortcomings in the current 
system of funding with regard to communications 
interoperability of first responders?
    Mr. Foresman. Senator, I think there are two critical 
issues. We do not have a consistent national definition of what 
are we talking about. Are we talking about interoperability, or 
are we talking about operability, or are we talking about the 
interoperability between disciplines, between levels of 
government? But it goes back to a conversation that you and I 
were fortunate enough to have in your office, and before we get 
to the technological and the funding solution, we need to 
decide who needs to talk to whom, when, and how, and that is 
good old-fashioned business rules in terms of how we want to do 
business on a day-to-day basis.
    We have been fortunate, in Virginia, in the development of 
one of the first interoperability strategies in the Nation. 
Does it solve all the problems? Absolutely not, but it gives us 
a clear indicator of where we are going to spend our critical 
dollars, whether Federal, State, or local dollars toward 
solving interoperability issues. And frankly, the one thing I 
would tell you is having that strategy, it allows us to use it 
as a tool. We don't use Federal grant dollars for 
interoperability projects unless it is consistent with that 
strategy, and we have an executive committee that reviews those 
proposals.
    Senator Lieberman. Good for you. I am not going to hold you 
to this, but in a general sense, what is a reasonable time 
table for achieving a reasonable level of communications 
interoperability among first responders nationwide?
    Mr. Foresman. Well, Senator, it is difficult to try to put 
a time frame on it. I come from the rural parts of Virginia 
where not only do the local governments own their own radio 
systems, the actual first responder organizations, and we are 
talking about thousands if not tens of thousands of systems 
across the country. I would be hard-pressed to give you an 
answer that had any modicum of accuracy, but please understand 
that having been a first responder in the early 1980s at an 
automobile accident in the middle of nowhere on the Interstate, 
driving an ambulance and not being able to talk to anybody and 
having people die is exceptionally frustrating. I have lived 
with interoperability, I understand interoperability, and I am 
committed to making sure that we work on interoperability.
    Senator Lieberman. Thank you. My time is up.
    Chairman Collins. Thank you.
    I do have some additional questions for both nominees, 
which I am going to submit for the record.
    Senator Lieberman, do you have anything else you would like 
to ask at the hearing, or----
    Senator Lieberman. Just one quick question for Mr. 
Foresman, and this, though they haven't asked me, is on behalf 
of our two colleagues from California, who continue to ask 
Senator Collins and me to focus on San Francisco and the 
potential for an earthquake because we all hear that this is 
considered by natural disaster experts as one of their bigger 
fears, along with the two that tragically have already 
happened, a terrorist attack on New York and the flooding of 
New Orleans.
    I don't know whether you have been in a position to know 
whether the Department has existing plans with regard to 
responding to an earthquake in California, and if not, whether 
you would work with the State of California to conduct the kind 
of simulations, training, and planning exercises that we have 
just talked about.
    Mr. Foresman. Senator, with regard to the specific plans on 
the shelves at the Department, I am not aware of the specifics, 
but I would offer to you that in the early 1990s when we were 
developing what was then the first Federal Response Plan and 
States and the Federal Government working together, that grew 
out of what was then FEMA's Catastrophic Incident Earthquake 
Plan, and so we know that we have the core principles. We have 
to be careful that we don't try to develop a plan for every 
hazard or every scenario, but rather, we develop the framework 
that is expandable, adaptable to the specific situations that 
would occur.
    But I can say clearly, working with my counterparts from 
California over the years, the New Madrid fault, the L.A. 
basin, certainly San Francisco, those are the types of events 
that would occur with little or no warning. They would cause a 
widespread amount of devastation. And clearly, doing continuous 
planning, training, and exercise in preparation for those is 
absolutely critical. Preparedness is very much about progress, 
and we have got to continue to make progress every day in terms 
of continuously looking at all of the risks we face and manage 
them better.
    Senator Lieberman. Thank you both. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you.
    I want to thank both nominees for appearing before the 
Committee today. Without objection, the record will be kept 
open until 5 p.m. tomorrow for the submission of any written 
questions or statements or other materials for the record.
    This hearing is now adjourned.
    [Whereupon, at 3:39 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6745.001

[GRAPHIC] [TIFF OMITTED] T6745.002

[GRAPHIC] [TIFF OMITTED] T6745.003

[GRAPHIC] [TIFF OMITTED] T6745.004

[GRAPHIC] [TIFF OMITTED] T6745.005

[GRAPHIC] [TIFF OMITTED] T6745.007

[GRAPHIC] [TIFF OMITTED] T6745.008

[GRAPHIC] [TIFF OMITTED] T6745.009

[GRAPHIC] [TIFF OMITTED] T6745.010

[GRAPHIC] [TIFF OMITTED] T6745.011

[GRAPHIC] [TIFF OMITTED] T6745.012

[GRAPHIC] [TIFF OMITTED] T6745.013

[GRAPHIC] [TIFF OMITTED] T6745.014

[GRAPHIC] [TIFF OMITTED] T6745.015

[GRAPHIC] [TIFF OMITTED] T6745.016

[GRAPHIC] [TIFF OMITTED] T6745.017

[GRAPHIC] [TIFF OMITTED] T6745.018

[GRAPHIC] [TIFF OMITTED] T6745.019

[GRAPHIC] [TIFF OMITTED] T6745.020

[GRAPHIC] [TIFF OMITTED] T6745.021

[GRAPHIC] [TIFF OMITTED] T6745.105

[GRAPHIC] [TIFF OMITTED] T6745.035

[GRAPHIC] [TIFF OMITTED] T6745.036

[GRAPHIC] [TIFF OMITTED] T6745.037

[GRAPHIC] [TIFF OMITTED] T6745.038

[GRAPHIC] [TIFF OMITTED] T6745.039

[GRAPHIC] [TIFF OMITTED] T6745.040

[GRAPHIC] [TIFF OMITTED] T6745.041

[GRAPHIC] [TIFF OMITTED] T6745.042

[GRAPHIC] [TIFF OMITTED] T6745.043

[GRAPHIC] [TIFF OMITTED] T6745.044

[GRAPHIC] [TIFF OMITTED] T6745.045

[GRAPHIC] [TIFF OMITTED] T6745.046

[GRAPHIC] [TIFF OMITTED] T6745.047

[GRAPHIC] [TIFF OMITTED] T6745.048

[GRAPHIC] [TIFF OMITTED] T6745.049

[GRAPHIC] [TIFF OMITTED] T6745.050

[GRAPHIC] [TIFF OMITTED] T6745.051

[GRAPHIC] [TIFF OMITTED] T6745.052

[GRAPHIC] [TIFF OMITTED] T6745.053

[GRAPHIC] [TIFF OMITTED] T6745.054

[GRAPHIC] [TIFF OMITTED] T6745.055

[GRAPHIC] [TIFF OMITTED] T6745.056

[GRAPHIC] [TIFF OMITTED] T6745.057

[GRAPHIC] [TIFF OMITTED] T6745.058

[GRAPHIC] [TIFF OMITTED] T6745.059

[GRAPHIC] [TIFF OMITTED] T6745.060

[GRAPHIC] [TIFF OMITTED] T6745.061

[GRAPHIC] [TIFF OMITTED] T6745.062

[GRAPHIC] [TIFF OMITTED] T6745.063

[GRAPHIC] [TIFF OMITTED] T6745.064

[GRAPHIC] [TIFF OMITTED] T6745.065

[GRAPHIC] [TIFF OMITTED] T6745.066

[GRAPHIC] [TIFF OMITTED] T6745.067

[GRAPHIC] [TIFF OMITTED] T6745.068

[GRAPHIC] [TIFF OMITTED] T6745.069

[GRAPHIC] [TIFF OMITTED] T6745.070

[GRAPHIC] [TIFF OMITTED] T6745.071

[GRAPHIC] [TIFF OMITTED] T6745.072

[GRAPHIC] [TIFF OMITTED] T6745.073

[GRAPHIC] [TIFF OMITTED] T6745.074

[GRAPHIC] [TIFF OMITTED] T6745.075

[GRAPHIC] [TIFF OMITTED] T6745.076

[GRAPHIC] [TIFF OMITTED] T6745.077

[GRAPHIC] [TIFF OMITTED] T6745.078

[GRAPHIC] [TIFF OMITTED] T6745.079

[GRAPHIC] [TIFF OMITTED] T6745.080

[GRAPHIC] [TIFF OMITTED] T6745.081

[GRAPHIC] [TIFF OMITTED] T6745.082

[GRAPHIC] [TIFF OMITTED] T6745.083

[GRAPHIC] [TIFF OMITTED] T6745.084

[GRAPHIC] [TIFF OMITTED] T6745.085

[GRAPHIC] [TIFF OMITTED] T6745.086

[GRAPHIC] [TIFF OMITTED] T6745.087

[GRAPHIC] [TIFF OMITTED] T6745.088

[GRAPHIC] [TIFF OMITTED] T6745.089

[GRAPHIC] [TIFF OMITTED] T6745.090

[GRAPHIC] [TIFF OMITTED] T6745.091

[GRAPHIC] [TIFF OMITTED] T6745.092

[GRAPHIC] [TIFF OMITTED] T6745.093

[GRAPHIC] [TIFF OMITTED] T6745.094

[GRAPHIC] [TIFF OMITTED] T6745.095

[GRAPHIC] [TIFF OMITTED] T6745.096

[GRAPHIC] [TIFF OMITTED] T6745.097

[GRAPHIC] [TIFF OMITTED] T6745.098

[GRAPHIC] [TIFF OMITTED] T6745.099

[GRAPHIC] [TIFF OMITTED] T6745.100

[GRAPHIC] [TIFF OMITTED] T6745.101

[GRAPHIC] [TIFF OMITTED] T6745.102

[GRAPHIC] [TIFF OMITTED] T6745.103

[GRAPHIC] [TIFF OMITTED] T6745.104

[GRAPHIC] [TIFF OMITTED] T6745.022

[GRAPHIC] [TIFF OMITTED] T6745.023

[GRAPHIC] [TIFF OMITTED] T6745.024

[GRAPHIC] [TIFF OMITTED] T6745.025

[GRAPHIC] [TIFF OMITTED] T6745.026

[GRAPHIC] [TIFF OMITTED] T6745.027

[GRAPHIC] [TIFF OMITTED] T6745.028

[GRAPHIC] [TIFF OMITTED] T6745.029

[GRAPHIC] [TIFF OMITTED] T6745.030

[GRAPHIC] [TIFF OMITTED] T6745.031

[GRAPHIC] [TIFF OMITTED] T6745.032

[GRAPHIC] [TIFF OMITTED] T6745.033

[GRAPHIC] [TIFF OMITTED] T6745.034

[GRAPHIC] [TIFF OMITTED] T6745.106

[GRAPHIC] [TIFF OMITTED] T6745.107

[GRAPHIC] [TIFF OMITTED] T6745.108

[GRAPHIC] [TIFF OMITTED] T6745.109

[GRAPHIC] [TIFF OMITTED] T6745.110

[GRAPHIC] [TIFF OMITTED] T6745.111

[GRAPHIC] [TIFF OMITTED] T6745.112

[GRAPHIC] [TIFF OMITTED] T6745.113

[GRAPHIC] [TIFF OMITTED] T6745.150

[GRAPHIC] [TIFF OMITTED] T6745.114

[GRAPHIC] [TIFF OMITTED] T6745.115

[GRAPHIC] [TIFF OMITTED] T6745.116

[GRAPHIC] [TIFF OMITTED] T6745.117

[GRAPHIC] [TIFF OMITTED] T6745.118

[GRAPHIC] [TIFF OMITTED] T6745.119

[GRAPHIC] [TIFF OMITTED] T6745.120

[GRAPHIC] [TIFF OMITTED] T6745.121

[GRAPHIC] [TIFF OMITTED] T6745.122

[GRAPHIC] [TIFF OMITTED] T6745.123

[GRAPHIC] [TIFF OMITTED] T6745.124

[GRAPHIC] [TIFF OMITTED] T6745.125

[GRAPHIC] [TIFF OMITTED] T6745.126

[GRAPHIC] [TIFF OMITTED] T6745.127

[GRAPHIC] [TIFF OMITTED] T6745.128

[GRAPHIC] [TIFF OMITTED] T6745.129

[GRAPHIC] [TIFF OMITTED] T6745.130

[GRAPHIC] [TIFF OMITTED] T6745.131

[GRAPHIC] [TIFF OMITTED] T6745.132

[GRAPHIC] [TIFF OMITTED] T6745.133

[GRAPHIC] [TIFF OMITTED] T6745.134

[GRAPHIC] [TIFF OMITTED] T6745.135

[GRAPHIC] [TIFF OMITTED] T6745.136

[GRAPHIC] [TIFF OMITTED] T6745.137

[GRAPHIC] [TIFF OMITTED] T6745.138

[GRAPHIC] [TIFF OMITTED] T6745.139

[GRAPHIC] [TIFF OMITTED] T6745.140

[GRAPHIC] [TIFF OMITTED] T6745.141

[GRAPHIC] [TIFF OMITTED] T6745.142

[GRAPHIC] [TIFF OMITTED] T6745.143

[GRAPHIC] [TIFF OMITTED] T6745.144

[GRAPHIC] [TIFF OMITTED] T6745.145

[GRAPHIC] [TIFF OMITTED] T6745.146

[GRAPHIC] [TIFF OMITTED] T6745.147

[GRAPHIC] [TIFF OMITTED] T6745.148

[GRAPHIC] [TIFF OMITTED] T6745.149

[GRAPHIC] [TIFF OMITTED] T6745.151

[GRAPHIC] [TIFF OMITTED] T6745.152

[GRAPHIC] [TIFF OMITTED] T6745.153

[GRAPHIC] [TIFF OMITTED] T6745.154

[GRAPHIC] [TIFF OMITTED] T6745.155

[GRAPHIC] [TIFF OMITTED] T6745.156

[GRAPHIC] [TIFF OMITTED] T6745.157

[GRAPHIC] [TIFF OMITTED] T6745.158

[GRAPHIC] [TIFF OMITTED] T6745.159

[GRAPHIC] [TIFF OMITTED] T6745.160

[GRAPHIC] [TIFF OMITTED] T6745.161

[GRAPHIC] [TIFF OMITTED] T6745.162

[GRAPHIC] [TIFF OMITTED] T6745.163

[GRAPHIC] [TIFF OMITTED] T6745.164

[GRAPHIC] [TIFF OMITTED] T6745.165

[GRAPHIC] [TIFF OMITTED] T6745.166

[GRAPHIC] [TIFF OMITTED] T6745.167

[GRAPHIC] [TIFF OMITTED] T6745.168

[GRAPHIC] [TIFF OMITTED] T6745.169

[GRAPHIC] [TIFF OMITTED] T6745.170

[GRAPHIC] [TIFF OMITTED] T6745.171

[GRAPHIC] [TIFF OMITTED] T6745.172

[GRAPHIC] [TIFF OMITTED] T6745.173

[GRAPHIC] [TIFF OMITTED] T6745.175

[GRAPHIC] [TIFF OMITTED] T6745.176

[GRAPHIC] [TIFF OMITTED] T6745.174

[GRAPHIC] [TIFF OMITTED] T6745.177

[GRAPHIC] [TIFF OMITTED] T6745.178

[GRAPHIC] [TIFF OMITTED] T6745.179

[GRAPHIC] [TIFF OMITTED] T6745.180

[GRAPHIC] [TIFF OMITTED] T6745.181

[GRAPHIC] [TIFF OMITTED] T6745.182

[GRAPHIC] [TIFF OMITTED] T6745.183

[GRAPHIC] [TIFF OMITTED] T6745.184

[GRAPHIC] [TIFF OMITTED] T6745.185

[GRAPHIC] [TIFF OMITTED] T6745.186

[GRAPHIC] [TIFF OMITTED] T6745.187

[GRAPHIC] [TIFF OMITTED] T6745.188

[GRAPHIC] [TIFF OMITTED] T6745.189

[GRAPHIC] [TIFF OMITTED] T6745.190

[GRAPHIC] [TIFF OMITTED] T6745.191

[GRAPHIC] [TIFF OMITTED] T6745.192

[GRAPHIC] [TIFF OMITTED] T6745.193

[GRAPHIC] [TIFF OMITTED] T6745.194

[GRAPHIC] [TIFF OMITTED] T6745.195

[GRAPHIC] [TIFF OMITTED] T6745.196

[GRAPHIC] [TIFF OMITTED] T6745.197

[GRAPHIC] [TIFF OMITTED] T6745.198

[GRAPHIC] [TIFF OMITTED] T6745.199

[GRAPHIC] [TIFF OMITTED] T6745.200

[GRAPHIC] [TIFF OMITTED] T6745.201

[GRAPHIC] [TIFF OMITTED] T6745.202

[GRAPHIC] [TIFF OMITTED] T6745.203

[GRAPHIC] [TIFF OMITTED] T6745.204

[GRAPHIC] [TIFF OMITTED] T6745.205

[GRAPHIC] [TIFF OMITTED] T6745.206

[GRAPHIC] [TIFF OMITTED] T6745.207

[GRAPHIC] [TIFF OMITTED] T6745.208

[GRAPHIC] [TIFF OMITTED] T6745.209

[GRAPHIC] [TIFF OMITTED] T6745.210

[GRAPHIC] [TIFF OMITTED] T6745.211

[GRAPHIC] [TIFF OMITTED] T6745.212

[GRAPHIC] [TIFF OMITTED] T6745.213

[GRAPHIC] [TIFF OMITTED] T6745.214

[GRAPHIC] [TIFF OMITTED] T6745.215

[GRAPHIC] [TIFF OMITTED] T6745.216

[GRAPHIC] [TIFF OMITTED] T6745.217

[GRAPHIC] [TIFF OMITTED] T6745.218

[GRAPHIC] [TIFF OMITTED] T6745.219

[GRAPHIC] [TIFF OMITTED] T6745.220

[GRAPHIC] [TIFF OMITTED] T6745.221

[GRAPHIC] [TIFF OMITTED] T6745.222

[GRAPHIC] [TIFF OMITTED] T6745.223

[GRAPHIC] [TIFF OMITTED] T6745.224

[GRAPHIC] [TIFF OMITTED] T6745.225

[GRAPHIC] [TIFF OMITTED] T6745.226

[GRAPHIC] [TIFF OMITTED] T6745.227

[GRAPHIC] [TIFF OMITTED] T6745.228

[GRAPHIC] [TIFF OMITTED] T6745.229

[GRAPHIC] [TIFF OMITTED] T6745.230

[GRAPHIC] [TIFF OMITTED] T6745.231

[GRAPHIC] [TIFF OMITTED] T6745.232

[GRAPHIC] [TIFF OMITTED] T6745.233

[GRAPHIC] [TIFF OMITTED] T6745.234

                                 <all>

</pre></body></html>
